Case 20-841, Document 32, 06/26/2020, 2871902, Pagel of 1
1a
E.D.N.Y.—Bklyn
17-cv-6765
Kuntz, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 26th day of June, two thousand twenty.
Present:
Guido Calabresi,
Denny Chin,
Susan L. Carney,
Circuit Judges.
Palani Karupaiyan,
Plaintiff-Appellant,
v.

20-841

Department of Education, New York City,
Defendant-Appellee,
Vaibhav Wakode, et al.,
Defendants. i
Appellant, pro se, moves to proceed in forma pauperis and to expedite the appeal. However, this
Court has determined sua sponte that the notice of appeal was untimely filed. Upon due
consideration, it is hereby ORDERED that the appeal is DISMISSED for lack ofjurisdiction. See
28 U.S.C. § 2107; Bowles v. Russell, 551 U.S. 205, 214 (2007). It is further ORDERED that
Appellant’s motions are DENIED as moot.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

The Clerk’s Office is directed to amend the caption as reflected above.

Case l:17-cv-§&S5Wf^Ll!?o^8ftte&t^0¥^^2??®/l^3P§iptW:LtPPagelD #: 673

FILED

2a

*

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
PALANIKARUPAIYAN,

DEC 1 0 2019

.

...------- —X BROOKLYN OFFICE
(

Plaintiff

DECISION & ORDER
17-CV-6765 (WFK) (LB)

v.
NEW YORK CITY DEPARTMENT OF
EDUCATION,

*

Defendant.
X
WILLIAM F, KUNTZ, H, United States District Judge:
Palani Karupaiyan (“Plaintiff’), proceeding pro set brings this action against the New York City
Department of Education (“Defendant” or “DOE”) alleging violations of Title YII of the Civil.
Rights Act of 1964 (“Title VII”), the Age Discrimination in Employment Act of 1967
(“ADEA”), the Americans with Disabilities Act (“ADA”), the Genetic Information
Nondiscrimination Act (“GINA”). New York State Human Rights Law, New York City Human
Rights Law, and the Equal Pay Act of 1963. See Second Am. Compl. (“SAC”), ECF No. 21.
Defendant now moves for dismissal pursuant to Rule 12(b)(6) of the Federal Rules of Civil
Procedure. See ECF No. 30; ECF No. 32 (“Mem.”). For the reasons discussed below,
Defendant’s motion is GRANTED in its entirety.

BACKGROUND
As alleged in the Second Amended Complaint, Plaintiff is a forty-seven-year-old man
who identifies as South Indian and a practicing Hindu. SAC
citizen who was bom in India. Id.

2,13.1 Plaintiff is a naturalized

2. He worked as a contract employee with DOE from

1 The Court considers only the facts as alleged in the Second Amended Complaint. To the extent Plaintiff
incorporated additional facts or allegations in his opposition to the instant motion, the Court declines to consider
those facts because the Court previously denied his request to amend his complaint a third time. See infra. <

j

Case l:17-cv-6&ra^WlL§o©OT§rrt*t<^O9^4gi@/KP3pBg0^fLtPPagelD & 674
3a

February 2016 to October 2,2017. Id. ^ 6. Plaintiff was bom with Situs Inversus Totalis, a
DNA level genetic disability, and he claims he also has diabetes, vision issues, and has
previously had two minor heart attacks. Id.

i

2-3,20.

Plaintiff identifies several events he alleges amount to discrimination. On March 28,
2017 and another unspecified date, Plaintiff alleges IT School Food Division’s Team Lead,j Asif
Khan, ordered the transfer of two of Plaintiffs project assignments to Jamil Zohaib Ahmed. Id.
76,79. Separately, in the second quarter of 2017, Kashif Munshi then refused to give Plaintiff
the Apple Mac machine IP address in order to set up mobile development. Id. 1f 78. Sometime
i

between July and August 2017, Plaintiff alleges Nadine Brown used “discriminative words”
against him and said she would “smack [him] out to India” while raising a laptop. Id. U 84. In

i

that same time period, Eugene Levin denied Plaintiff overtime. Id. ^ 87.

On June 18,2017, Plaintiff applied for an open position for the Certified IT Developer
and Application System Analyst (“IT Developer”). Id. f 82. Plaintiff also applied but was not
interviewed for a Data Warehouse position. Id. f 83. On August 10,2017, Mani
Krishnamurthy, Alice Carman, and others interviewed Plaintiff for the IT Developer position.
Id.

27, 89. Carman later offered Plaintiff the position at an annual salary of $135,000.00. Id.

If 91. Plaintiff countered with $170,000.00 a year, arguing $135,000.00 was “unfair.” Id.
Plaintiff spoke with Krishnamurthy a few days later who told him DOE did not have the budget
for his requested salary. Id. ^ 92. Plaintiff also alleges on October 2,2017, he asked

1

Krishnamurthy why his salary offer was reduced, and he replied Plaintiff was diabetic. Id.
In August 2017, Levin allegedly called Plaintiff a “weak person” and did not assign
Plaintiff new projects. Id. fflf 93,97-98. Plaintiff told Levin he would continue to apply to
contract jobs and it would be discrimination if DOE did not hire U.S. citizens or permanent

2

107.

Case l:17-cv-to®52^^L©o<EM5B§frt^it^0^3@i4^fM^3pe§@^B(i?fitpPagelD A: 675
4a

residents for those positions. Id.

93-94. On or around September 15,2017, Jaysmar Bastien

offered Plaintiff an annual salary of $115,000.00, claiming the salary was reduced because
Plaintiff alleged discrimination in DOE only hiring foreigners for contract jobs. Id. f 100. Four
of Plaintiffs coworkers were recruited for unspecified fulltime “manager jobs” that were not
publicly posted from April to October 2017. Id.

11,81. Plaintiff applied for multiple DOE

contract positions in September and October 2017 but was not interviewed for any. Id.

101,

112,114. Other employees who were all Indian nationals were interviewed, and two received
positions. Id.

102. Plaintiffs contract with DOE ended on October 2,2017. Id. ^ 107.

Plaintiff then commenced this action on November 20,2017. See ECF No. 1. The Court
dismissed Plaintiffs original complaint on December 7,2017, and granted Plaintiff leave toi file
an amended complaint. See ECF No. 8 (“Dec. 7,2017 Order”). Plaintiff filed an amended
complaint on January 11,2018, see ECF No. 12, and was granted leave to file a second amended .
complaint, see ECF No. 23; SAC. The Court denied Plaintiffs request to file a third amended
complaint. See ECF No. 27. Plaintiff brings claims for race, color, gender, national origin,
religion, age, and disability discrimination, retaliation, hostile work environment, and violation
of the Equal Pay Act See generally SAC.
Defendant now moves for dismissal of the Second Amended Complaint pursuant to Rule
12(b)(6) of the Federal Rules of Civil Procedure. See Def. Mem.
LEGAL STANDARDS
In reviewing the Complaint, the Court is mindful Plaintiff is proceeding pro se, and his
pleadings should be held “to less stringent standards than formal pleadings drafted by lawyers.”
Hughes v. Rowe, 449 U.S. 5, 9 (1980) (internal quotation marks omitted); accord Harris v. Mills,
572 F.3d 66, 72 (2d Cir. 2009). Nevertheless, a complaint drafted by a pro se litigant must still

3

Case l:17-cv-i

l/li<tlLg)oOtra8rrt^it(WOy3®aa^f©/?L'563pg§gei4dftitDPagelD #: 676
5a

state a claim for relief and comply with the minimal pleading standards as required by the
Federal Rules. See Walker v. Schult, 717 F.3d 119,124 (2d Cir. 2013); Traguth v. Zuck, 710
F.2d 90,95 (2d Cir. 1983) (noting pro se status “does not exempt a party from compliance with
relevant rules of procedural and substantive law”).
To survive a motion to dismiss for failure to state a claim for which relief can be granted
under Rule 12(b)(6), “a complaint must contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662,678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A claim has facial plausibility
when the plaintiff pleads factual content that allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.” Id. A complaint must be dismissedi
where, as a matter of law, “the allegations in [the] complaint, however true, could not raise a
claim of entitlement to relief.” Twombly, 550 U.S. at 558.
In considering a motion to dismiss, the Court must accept all of the non-movant’s factual
allegations as true and draw all reasonable inferences in the non-movant’s favor. Id. at 555; see
also Chambers v. Time Warner, Inc., 282 F.3d 147,152 (2d Cir. 2002). However, the Court is
“not bound to accept as true a legal conclusion couched as a factual allegation.” Iqbal, 556 U.S.
at 678 (internal quotation marks omitted). Indeed, “[cjonclusory allegations or legal conclusions
masquerading as factual conclusions will not suffice to [defeat] a motion to dismiss.” Achtman
v. Kirby, Mclnerney & Squire, LLP, 464 F.3d 328, 337 (2d Cir. 2006) (internal quotation marks
omitted).
DISCUSSION
Defendant argues first Plaintiffs federal claims should be dismissed as time-barred to the
extent they are based on events that occurred before February 15,2017. See Def. Mem. at 6-7.

4

Case-l:17-cv-fite8^flWM[lL©ocMRjent^itC»yO9«eaa2fa0B53pB§8^5(rtfLtDPagelD #: 677
6a

Next, Defendant argues Plaintiffs Title VII, ADA, ADEA, and GINA claims are barred fof
failure to exhaust his administrative remedies. See id. at 7-8. The remaining claims, in
Defendant’s view, must be dismissed for failure to state a cause of action. See id. at 8-24.
As an initial matter, this Decision and Order addresses only the claims raised in the
Second Amended Complaint. The Court denied Plaintiffs request to amend his complaint for a
third time and denied Plaintiffs request to reconsider that decision. Thus, any arguments

!

Plaintiff raises in his opposition that involve new allegations, such as the Dodd-Frank Act or Fair
Labor Standards Act violations or retaliation, are barred.
For the reasons discussed below, this Court grants Defendant’s motion to dismiss.
I.

Failure to Exhaust Administrative Remedies
a. Title VII, ADA, and GINA Claims (Counts i, 2,3,4,5,6,8,9,10,11)

Under Title VII, a federal litigant alleging employment discrimination must first exhaust
administrative remedies by timely filing a charge with the Equal Employment Opportunity
Commission (“EEOC”) and obtain a right to sue letter. See 42 U.S.C. § 2000e-5(e); Legnani v.
Alitalia Linee Aeree Italiane, S.P.A., 274 F.3d 683,686 (2d Cir. 2001) (Title VII).
“Administration exhaustion is an essential element of Title VII’s statutory scheme, the purpose
of which is to avoid unnecessary judicial action by the federal courts by ‘[giving] the
administration agency the opportunity to investigate, mediate, and take remedial action.’” See
Canty v. Wackenhut Corr. Corp., 255 F. Supp. 2d 113,116 (E.D.N.Y. 2003) (Spatt, J.) (quoting
Stewart v. U.S. Immigration & Naturalization Service, 762 F.3d 193, 198 (2d Cir. 1985)).
The ADA and GINA also incorporate this requirement. See 42 U.S.C. § 12117(a);
Agosta v. Suffolk Cty., 981 F. Supp. 2d 167,172 (E.D.N.Y. 2013) (Spatt, J.) (“A district court
only has jurisdiction to hear claims brought pursuant to the ADA that are... contained in die

5

Case l:17-cv-^?a^2i^^L®ootra§Rt^t^OW3a^f®/7L^3pg|@^ffitPpagelD #: 678
7a

EEOC charge....”); Hawkins v. Jamaica Hospital Medical Ctr., 16-CV-4265,2018 WL
3134415, at *8 n.14 (E.D.N.Y. Feb. 26,2018) (Poliak, M.J.) (“GINA claims are subject to Title
VII’s administrative exhaustion requirement.”).
When the Court issued its December 7,2017 Order, it advised Plaintiff he “d[id] not
allege that he filed a charge with the EEOC or appropriate state agency and ha[d] not included a
Right to Sue letter with this complaint.” Dec. 7,2017 Order at 5. In his Second Amended
Complaint, Plaintiff attached his charge of employment discrimination filed with the EEOC, see
ECF No. 21-1, but did not include a right to sue letter or make clear whether he received such a
i

letter. This Court specifically ordered Plaintiff to attach to any amended complaint “a copy of
the EEOC’s Right to Sue letter.” Dec. 7,2017 Order at 6. Moreover, based on the letters written
by Plaintiff attached to the Second Amended Complaint, he was well aware he needed to obtain
the right to sue letter in order to move forward with a federal claim. See, e.g., ECF No. 21-1 at
13,15,48 (letters written by Plaintiff to the Employment Litigation Section of the U.S.
Department of Justice, noting “[t]he right to Sue letter is [a] must from DOJ”); accord Canty,
255 F. Supp. 2d at 117 (“[Wjhile the complaint alleges that a grievance was filed with the
EEOC, it does not state that [the claimant] obtained a right-to-sue letter. Thus, she has not
demonstrated that she has exhausted her administrative remedies.”).
Because Plaintiff did not obtain a right to sue letter, as required by law and as previously
ordered by this Court, his Title VII, ADA, and GINA claims are dismissed.
b. ADEA Claim (Count 7)
The ADEA does not require a plaintiff to obtain a right to sue letter for purposes of
i
administration exhaustion. See Canty, 255 F. Supp. 2d at 118. It does, however, require a

6

Case l:17-cv-6&PS^PrtlL©ooBBintehtW0^8e3(lSfS®3pB@a^7(#fLtPPagelD #: 679
8a
plaintiff to wait “until sixty days after a charge alleging unlawful discrimination has been fifed
with the [EEOC]” before filing a civil action. See 29 U.S.C. § 626(d).
Here, Plaintiff filed his federal claim on November 20,2017 and filed his charge of
discrimination on December 12,2017. Plaintiff also checked the box on his employment
discrimination form that less than 60 days had elapsed since filing his charge of age

!

discrimination with the EEOC. See SAC, Ex. A at 6.
Even if the Court were to waive this requirement, Plaintiffs allegations cannot survive
Rule 12(b)(6). To state a claim for relief, a plaintiff asserting an employment discriminatioii
claim pursuant to the ADEA “must plausibly allege that adverse action was taken against heir by
her employer and that her age was a ‘but-for’ cause of the adverse action.” Marcus v. Leviton
Mfg. Co., Inc., 661 F. App’x 29,31-32 (2d Cir. 2016) (summary order). Defendant argues
“Plaintiff fails to adequately allege that his age was the ‘but-for’ reason for the project
reassignment and manager job promotions.” Def. Mem. at 18.
Plaintiff contends Defendant’s conduct violated the ADEA because the stated reasons
were pretext to hide discriminatory animus. See SAC

159. Although Plaintiff lists “age”;

throughout the Second Amended Complaint, only two allegations in the lengthy submission j
reference specifically refer to age of employees. Id. fflj 81,98. Plaintiff makes no plausible;
connection between any alleged adverse action on the part of DOE and his age being the case.
Plaintiff fails to allege any facts beyond mere conclusions Defendant terminated Plaintiff based
on his age. Merely alleging “younger” employees were treated better without more specific
information does not give rise to a minimal inference of age discrimination as required by the
ADEA. See Marcus, 661 F. App’x at 32; see also, e.g.,Ndremizara v. Swiss Re Amer. Holding
\

Corp., 93 F. Supp. 3d 301,315-16 (S.D.N.Y. 2015) (Karas, J.) (“Plaintiff must allege something

7

j

!

Case l:17-cv-6&£SS2&gftlLg>O0TO§m^tWW3Q)OT®3pgpq^fitPPagelD #: 680
9a
that plausibly shows he was a victim of age discrimination.”); Payne v. Malemathew, 09-Cy1634,2011 WL 3043920, at *2 (S.D.N.Y. July 22,2011) (Seibel, J.) (dismissing pro se
complaint with ADEA claim because even reading the complaint liberally, “there is simply
nothing in the [Complaint] from which one might reasonably infer that Plaintiffs termination
was based on his age”).
Accordingly, Defendant’s motion to dismiss both federal and state age discrimination
claims is granted.
II.

Failure to State a Claim Upon Which Relief May Be Granted

A. State and City HRL Hostile Work Environment Claims (Count II)
Section 3813(1) of New York Education Law provides no claim involving the right or
interests of a school district may be brought against the district or its officers without first filing a
written notice of claim on the governing board of the DOE within ninety days of the claim
arising. A plaintiff must also plead and prove compliance with the notice of claim
requirement—failure to do so may result in dismissal. See, e.g., Birkholz v. City ofNew Y^rk,
I

10-CV-4719,2012 WL 580522, at *15 (E.D.N.Y. Feb. 22,2012) (Garaufis, J.); AT&T Co. v.
N.Y.C. Dep’t ofHuman Resources, 736 F. Supp. 496,499 (S.D.N.Y. 1990) (Leisure, J.) (listing
cases).
i

Here, Plaintiff does not explicitly state in his Second Amended Complaint whether he
filed a notice of claim upon the governing board of the DOE. Instead, in his opposition, Plaintiff
contends he filed the written notice on the Office of Equal Employment. The Notice of Claim,
even if it was filed correctly, was filed on May 11,2018—significantly more than three months
after his alleged claims arising. In a letter dated September 16,2018, Plaintiff filed a letter with
the Clerk of Court including a postal service label and contending he sent the notice of claim to

8
!

Case l:17-cv-^P^2^^L®o«EM58§frt^it^0^3@3(l^f#/I^3pe|e^fitPPagelD #: 681
10a
the governing board of DOE. See ECF No. 35. But “[a]n assertion in a memorandum does not
;

satisfy the requirements of § 3813, let alone an assertion that does not maintain the notice wis
timely served.” Birkholz, 2012 WL 580522, at *15. Thus, Plaintiffs claim fails to survive the
strictures of § 3813.
In any event, Plaintiffs state hostile work environment allegations fail to state a claim.
To demonstrate a hostile work environment, Plaintiff must plausibly allege facts to demonstrate:
(1) a workplace “with discriminatory intimidation, ridicule, and insult... that is sufficiently
severe or pervasive to alter the conditions of the victim’s employment and create an abusive
working environment,” Harris v. Forklift Systems, Inc., 510 U.S. 17, 21 (1993) (internal

i

quotation marks omitted); and (2) “a specific basis... for imputing the conduct that created the
hostile environment to the employer,” Howley v. Town ofStratford, 217 F.3d 141,154 (2d Cir.
2000) (internal quotation marks omitted). As such, the conduct must be “more than episodic.”
Littlejohn v. City ofNew York, 795 F.3d 297,321 (2d Cir. 2015) (Title VII, § 1981, and § 1983
case). Under the NYCHRL, a plaintiff must meet a lower bar, needing to allege only sufficient
facts to show plausibly the plaintiff was ‘“treated less well’” because of a protected class.
Nguedi v. Fed Res. BankofN.Y., 16-CV-636,2017 WL 5991757, at *10 (S.D.N.Y. Dec. 1,
2017) (Woods, J.) (quoting Mihalik v. Credit Agricole Cheuvreux N. Am., 715 F.3d 102,110 (2d
Cir. 2013)). .Plaintiff incorporates various one-off statements or allegations in his 48-page
Second Amended Complaint, but these allegations in no way plausibly allege hostile work
environment claims. In any event, “isolated, minor acts or occasional episodes” of
discrimination do not warrant relief in this case. Brennan v. Metro. Opera Ass ’n, 192 F.3d 310,
318 (2d Cir. 1999).
Accordingly, all Plaintiffs claims under state and city human rights laws are dismissed.

9

Case !:17-(^-(S6rasa0/WlL©oCMfDent*t(WO9^a^fi^3pE^g.tftJffLtDPagelD #: 682
11a
B. Equal Pay Act Claim Fails to State a Claim (Count 12)
Plaintiff also alleges discrimination under the Equal Pay Act (“EPA”). To establish
discrimination under the EPA, a claimant must establish: “(i) the employer pays different wages
i

to employees of the opposite sex; (ii) the employees perform equal work on jobs requiring equal
skill, effort, and responsibility; and (iii) the jobs are performed under similar working
conditions.” Lavin-Mceleney v. Marist Coll., 239 F.3d 476,480 (2d Cir. 2001). Plaintiffs
Second Amended Complaint makes no allegations “employees of the opposite sex” were paid
different wages. He appears to be displeased with the salary ranges afforded to employees
contracted to work at DOE, which is not an EPA violation.
***

Accordingly, the claims raised in Plaintiffs Second Amended Complaint are dismissed.
As noted previously, to the extent Plaintiff raises novel claims and allegations in his opposition
to the instant motion, his motion to amend his complaint for a third time was denied by this
Court, and his motion to reconsider that decision was denied by this Court. Plaintiff cannot
circumvent a decision of this Court by packing new allegations into his opposition to the motion.
CONCLUSION
For the foregoing reasons, Defendant’s motion to dismiss is GRANTED in their entirety,
and this action is hereby dismissed. Plaintiffs request to stay this matter, see ECF No. 36, is
DENIED. The Clerk of Court is respectfully directed to terminate the motion pending at ECF
No. 30 and close this case.
SO ORDERED^

Dated: December 10,2019
Brooklyn, New York

s/WFK
^fiON. WILLIAM/. KUftTZ, II
UNITED STATES DISTRICT JUDGE
10

Case l:l7-cv-§&£G5WfUL§o<^gftfe&tWW3^IM¥0PB3S^1d?fl.1PagelD #: 683
12a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NEW YORK
X

PALANI KARUPAIYAN,
JUDGMENT
17-CV-6765 (WFK) (LB)

Plaintiff,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant.
X

A Decision and Order of Honorable William F. Kuntz II, United States District Judge,
having been filed on December 10, 2019, granting Defendant’s motion to dismiss in its entirety;
and dismissing this action; it is
ORDERED and ADJUDGED that Defendant’s motion to dismiss is granted in its
entirety; and that this action is dismissed.
Dated: Brooklyn, NY
December 11,2019

Douglas C. Palmer
Clerk of Court
By:

IslJalitza Poveda
Deputy Clerk

Case 20-841, Document 41,08/11/2020, 2905363, Pagel of 1
13a

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
11th day of August, two thousand twenty.

Palani Karupaiyan,
Plaintiff - Appellant,
ORDER
Docket No: 20-841

v.
Department of Education, New York City,
Defendant - Appellee,
Vaibhav Wakode, Nadine Brown, Asif Ali Khan, Bebe
Kamta, Armando Taddei, Alice Carman, Jaysmar Bastien,
Mani C. Krishnamurthy,
Defendants.

Appellant, Palani Karupaiyan, filed a motion for panel reconsideration, or, in the
alternative, for reconsideration en banc. The panel that determined the appeal has considered the
request for reconsideration, and the active members of the Court have considered the request for
reconsideration en banc.
IT IS HEREBY ORDERED that the motion is denied.

FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

